Case: 18-11608

Date Filed: 09/25/2019

Page: 1 of 3
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-11608
Non-Argument Calendar

D.C. Docket No. 3:14-cv-00591-TJC-JBT

CASEY MATTINGLY,
Plaintiff - Appellant,
versus
DUVAL COUNTY JAIL,
SHANDS HOSPITAL,
DEBRA BARNES, M.D.,
SOHAIL KHAN, P.A.,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida
(September 25, 2019)
Before MARCUS, JORDAN, and BRANCH, Circuit Judges.
PER CURIAM:

Case: 18-11608

Date Filed: 09/25/2019

Page: 2 of 3

Casey Mattingly, proceeding pro se, appeals the district court’s order granting
summary judgment for the defendants on his Eighth Amendment claim for deliberate
indifference to medical needs. In its order, the district court concluded that the
testimony and the medical records, far from establishing constitutional violations,
showed that Mr. Mattingly “received consistent and adequate medical evaluation
and treatment.” D.E. 83 at 29. After careful review of the record, we affirm.
Mr. Mattingly’s reference to particular instances of the defendants’ alleged
failures to provide him with adequate care do not, even viewing them in the light
most favorable to him, see S. Solvents, Inc. v. N.H. Ins. Co., 91 F.3d 102, 104 (11th
Cir. 1996), rise to the level of constitutional violations. As the district court pointed
out, the defendants were responsive to Mr. Mattingly’s complaints, and he was
treated at more than one hospital. That the defendants did not provide Mr. Mattingly
I

with his desired course of treatment, or comply with the recommendations of outside
medical professionals, is insufficient to create an issue of fact on a deliberate
indifference claim. “[A] simple difference in medical opinion between the prison’s
medical staff and the inmate as to the latter’s diagnosis or course of treatment does
not support a claim of deliberate indifference.” Melton v. Abston, 841 F.3d 1207,
1224 (11th Cir. 2016) (quotation marks and citation omitted). Accordingly, we
agree with the district court and adopt its reasoning as our own.
2

*

A

Case: 18-11608

Date Filed: 09/25/2019

Page: 3 of 3

AFFIRMED.

4

3

i

USCA11 Case: 18-11608

Date Filed: 12/03/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-11608-EE

CASEY MATTINGLY,
Plaintiff - Appellant,
versus
DUVAL COUNTY JAIL,
SHANDS HOSPITAL,
DEBRA BARNES, M.D.,
SOHAIL KHAN, P.A.,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Florida
BEFORE: MARCUS, JORDAN, and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by the Appellant is DENIED.

ORD-41

Page: 1 of 1

3 3:14-cv-00591-TJC-JBT

Document 83
Filed 03/27/2018
1947

Page 1 of 31 PaqelD

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
CASEY MATTINGLY,
Plaintiff,
v,

Case No. 3:14-cv-591-J-32JBT

DANA BARNES, et al„
Defendants.

ORDER
I. Status
Plaintiff was a pretrial detainee at the Duval County Jail when he initiated this case.1
He is proceeding on a pro se Third Amended Complaint (Doc. 22) pursuant to 42 U.S.C.
§ 1983.2 He claims that Defendants Dana Barnes, M.D.; Linda Richo, N.P.; and Sohail Khan,
P.A. violated his constitutional rights when they were deliberately indifferent to his serious
medical needs while he was housed at the jail.3
Before the Court are Motions for Summary Judgment filed by Defendant Khan (Doc.
70) and Defendants Barnes and Richo (Doc. 71). Defendants filed Joint Exhibits (Doc. 72).
The Court previously advised Plaintiff of the provisions of Federal Rule of Civil Procedure

1 Plaintiff was subsequently convicted in state court and is currently housed in the Florida
Department of Corrections.
2 Plaintiff attached exhibits to his Third Amended Complaint; he also separately filed
exhibits (Docs. 37, 44, 48).
3 Plaintiff also named John Rutherford as a Defendant. The claims against Defendant
Rutherford were dismissed on October 20, 2016. See Order (Doc. 55).

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1948

Page 2 of 31 PagelD

56, and notified him that the granting of a motion for summary judgment may foreclose
subsequent litigation on the matter. See Order (Doc. 24). Plaintiff filed a consolidated
Response (Doc. 76) with Exhibits and a Declaration (Doc. 77). Defendants Barnes and Richo
filed a Reply (Doc. 81), and Plaintiff filed a Sur-Reply (Doc. 82).4 The Summary Judgment
Motions are ripe for review.
II. Plaintiff’s Third Amended Complaint
On May 9, 2013, Plaintiff slipped and fell in the Duval County Jail. He suffered a
“Lisfranc Injury.” He was seen by physicians at UF Health,5 who “recommended numerous
treatments to Dr. Dana BarnesQ on numerous occasions,” such as “pain management,
physical therapy, repa[]rative surgery, nerve blocks, and pain medication.” However,
Defendant “Barnes refused to allow the Plaintiff to receive any of the treatments until[] UF
Health Physicians fought for them." According to Plaintiff, Defendant Barnes considered the
recommended treatments “elective” and “stated that JSO [(Jacksonville Sheriffs Office)]
would not pay for them.” She also “refused to administer narcotic pain medication from the
onset of the injury until[] the Plaintiffs leg was amputated and it was no longer needed.”
In April 2014, Defendant Khan “took the Plaintiffs crutches from him and told him to
‘crawl his ass back to his dorm.’” Plaintiff alleges that Defendant Khan “threatened to taze
the Plaintiff if he didn’t comply.” Defendant “Khan refused to issue prescribe^] medication
from UF Health and told other nurses to avoid talking with the Plaintiff.” Defendant “Richo

4 Given the expansive record, citations to the parties’ filings are to the document and page
numbers as assigned by the Court’s electronic cese filing system.
5 UF Health Jacksonville was formerly known as Shands Jacksonville. See Doc. 72-3 at
2. The Court uses UF Health and Shands interchangeably.
2

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1949

Page 3 of 31 PagelD

refused to issue prescribed medication from UF Health, and has told the Plaintiff that she
would not refer him for speciality consultation.”
Plaintiff claims that he “was suffering from Reflex Sympathy Dystrophy, a secondary
and serious condition em[]anating from the Defendants’ neglect and deliberate indifference
of the Plaintiffs Lisfranc Injury.” According to Plaintiff, the Defendants were deliberately
indifferent by."refusing him medically necessary therapies[ and] narcotic medication,” and
“at points [were] hostile to the Plaintiff.” He states that as a result of the Defendants’ actions
and inactions, his left leg was amputated "in order for him to gain some quality of life and
mobility.” Plaintiff seeks monetary damages against each Defendant.
III. Parties’ Summary Judgment Positions
Generally, Defendants argue that they were not deliberately indifferent to Plaintiffs
serious medical needs and they are entitled to qualified immunity. They contend that Plaintiff
consistently received adequate medical care and treatment at the jail, Florida State Hospital,
and UF Health. Defendants filed the following exhibits in support of their positions: (1) the
transcript of Plaintiffs deposition (Doc. 72-1 at 1-383) (PI. Dep.) with exhibits (Doc. 72-1 at
384-482 to Doc. 72-2 at 1-104); (2) large portions of Plaintiffs medical records from the jail,
UF Health, and Florida State Hospital (Doc. 72-3 to Doc. 72-6); (3) declarations from
Defendant Barnes (Doc. 72-8 at 2-7) with exhibits (Doc. 72-8 at 9-38); Defendant Richo
(Doc. 72-7 at 2-3) with exhibits (Doc. 72-7 at 5-26); Defendant Khan with exhibits (Doc. 7211 and Doc. 72-12); Tara Wildes, the former Director of Corrections for the Jacksonville
Sheriffs Office (Doc. 72-10); Dr. Chaim Rogozinski, a board certified orthopedic surgeon
(Doc. 72-13); and Dr. Alan Abrams, a medical doctor and psychiatrist (Doc. 72-14); (4) a
3

Case 3:14-cv-00591-TJC-JBT

Document 83
Filed 03/27/2018
1950

Page 4 of 31 PagelD

deposition transcript of Patricia Kalu, an RNP at Florida State Hospital (Doc. 72-9 at 2-14)
with exhibits (Doc. 72-9 at 25-31); and (5) a demonstrative calendar reflecting the day-by-day
care Plaintiff received from the date of his injury (May 9,2013) to after his amputation (March
2015) (Doc. 72-15). According to Plaintiff, the record evidence shows that Defendants were
deliberately indifferent to his serious medical needs resulting in unnecessary pain

and

ultimately, a below-the-knee amputation of his left leg.
IV. Standard of Review
Summary judgment is appropriate where there is no genuine issue as to any material.
fact and the moving party is entitled to judgment as a matter of law.’” Hinkle v. Midland Credit
Mgmt., Inc., 827 F.3d 1295, 1300 (11 th Cir. 2016) (quoting Jurich v. Compass Marine. Inc
764 F.3d 1302, 1304 (11th Cir. 2014)); see Fed. R. Civ. P. 56(a). “A genuine issue of
material fact exists when the evidence is such that a reasonable jury could return a verdict
for the nonmoving party.” Bowen v. Manheim Remarketing Inn 882 F.3d 1358,1362 (11 th
Cir. 2018) (quotations and citation omitted).
If the movant satisfies the burden of production showing that
there is no genuine issue of fact, “the nonmoving party must
present evidence beyond the pleadings showing that a
reasonable jury could find in its favor." Shiver v. Chertnff 549
F.3d 1342, 1343 (11th Cir. 2008) (quotation omitted). [The
Court] draw[s] “all factual inferences in a light most favorable
to the non-moving party.” Id.
Winborn v. Supreme Beverage Co. Inc., 572 F. App’x672,674 (11th Cir. 2014) (per curiam).
“[W]hen the moving party has carried its burden under Rule 56(c), its opponent must
do more than simply show that there is some metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co. v. Zenith Radio Coro,. 475 U.S. 574, 586 (1986) (footnote and

4

Case 3:14-cv-00591-TJC-JBT

Document 83

Filed 03/27/2018

Page 5 of 31 PagelD

1951

citation omitted). “‘A mere scintilla of evidence supporting the opposing party’s position will
not suffice; there must be enough of a showing that the jury could reasonably find for that
party.’” Loren v. Sasser. 309 F.3d 1296,1302 (11 th Cir. 2002) (quoting Walker v. Darbv. 911
F.2d 1573, 1577 (11th Cir.1990) (internal quotations omitted)).
V. Deliberate Indifference Under 42 U.S.C. S 1983
“To prevail on [a] § 1983 claim for inadequate medical treatment, [the plaintiff] must
show (1) a serious medical need; (2) the health care providers’ deliberate indifference to that
need; and (3) causation between the health care providers’ indifference and [the plaintiffs]
injury.” Nam Dang by & through Vina Dana v. Sheriff. Seminole Ctv. Fla.. 871 F.3d 1272,
1279 (11 th Cir. 2017) (citation omitted).6
A serious medical need is one that has been diagnosed by a
physician as mandating treatment or one that is so obvious that
even a lay person would easily recognize the necessity for a
doctor’s attention. In the alternative, a serious medical need is
determined by whether a delay in treating the need worsens
the condition. In either case, the medical need must be one
that, if left unattended, poses a substantial risk of serious harm.
Mann v. Taser Int'l, Inc.. 588 F.3d 1291, 1307 (11th Cir. 2009) (quotations and citation
omitted).

Plaintiffs claims are properly analyzed under the Fourteenth Amendment rather than
the Eighth Amendment because he was a pretrial detainee at the time of the alleged
wrongdoing. See Dang. 871 F.3d at 1279 (“As a pretrial detainee, Dang alleges inadequate
medical care under the Fourteenth Amendment rather than the Eighth Amendment.” (citation
omitted)). Nevertheless, Plaintiffs claims are ‘“subject to the same scrutiny as if they had
been brought as deliberate indifference claims under the Eighth Amendment.’” Melton v.
Abston. 841 F.3d 1207, 1220 (11th Cir. 2016) (quoting Mann v. Taser Int’l. Inc.. 588 F.3d
1291, 1306 (11th Cir. 2009)); see Dang. 871 F.3d at 1279 (“Dang’s claims are evaluated
under the same standard as a prisoner’s claim of inadequate care under the Eighth
Amendment.” (citation omitted)).
5

I
Case 3:14-cv-00591-TJC-JBT

Document 83
Filed 03/27/2018
1952

Page 6 of 31 PaqelD

Deliberate indifference to a serious medical need requires “three components: (1)
subjective knowledge of a risk of serious harm; (2) disregard of that risk; (3) by conduct that
is more than mere negligence.” Farrow v. West. 320 F.3d 1235, 1245 (11th Cir. 2003)
(citations omitted); see Dang. 871 F.3d at 1280; Melton. 841 F.3d at 1223 & n.2. “Subjective
knowledge of the risk requires that the defendant be ‘aware of facts from which the inference
could be drawn that a substantial risk of serious harm exists, and he must also draw the
inference.’” Dang. 871 F.3d at 1280 (quoting Caldwell v. Warden. FCI Talladega 784 F.3d
1090, 1099-1100 (11th Cir. 2014)).
An official disregards a serious risk by more than mere
negligence “when he [or she] knows that an inmate is in
serious need of medical care, but he [or she] fails or refuses to
obtain medical treatment for the inmate.” Lancaster v. Monroe
Ctv.. Ala.. 116 F.3d 1419, 1425 (11th Cir. 19971. overruled on
other grounds by LeFrere v. Quezada. 588 F.3d 1317, 1318
(11th Cir. 2009). Even when medical care is ultimately
provided, a prison official may nonetheless act with deliberate
indifference by delaying the treatment of serious medical
needs. See Harris v. Coweta Ctv.. 21 F.3d 388, 393-94 (11th
Cir. 1994) (citing Brown v. Hughes. 894 F.2d 1533, 1537-39
(11th Cir. 1990)).[7] Further, “medical care which is so cursory
as to amount to no treatment at all may amount to deliberate
indifference.” Mandel v. Doe. 888 F.2d 783, 789 (11th Cir.
1989) (citations omitted). However, medical treatment violates
the Constitution only when it is “so grossly incompetent,
inadequate, or excessive as to shock the conscience or to be
7 i.

Even where medical care is ultimately provided, a prison official may nonetheless act
with deliberate indifference by delaying the treatment of serious medical needs, even for a
period of hours, though the reason for the delay and the nature of the medical need is
relevant in determining what type of delay is constitutionally intolerable.” McElliaottv. Folev.
182 F.3d 1248,1255 (11th Cir. 1999) (citation omitted). However, “[i]t is also true that when
a prison inmate has received medical care, courts hesitate to find an Eighth Amendment
violation.” Waldrop v, Evans. 871 F.2d 1030,1035 (11th Cir. 1989) (citing Hamm v. DeKalb
County, 774 F.2d 1567,1575 (11th Cir.1985)): see Boone v. Gaxiola. 665 F. App’x 772, 774
(11th Cir. 2016).
6

Case 3:14-cv-00591-TJC-JBT

Document 83

Filed 03/27/2018

Page 7 of 31 PagelD

1953

intolerable to fundamental fairness.” Rogers v. Evans. 792 F.2d
1052, 1058 (11th Cir. 1986) (citation omitted).
Dang. 871 F.3d at 1280. “‘[IJmputed or collective knowledge cannot serve as the basis for
a claim of deliberate indifference. Each individual defendant must be judged separately and
on the basis of what that person kn[ew]."’

(quoting Burnette v. Tavlor. 533 F.3d 1325,

1331 (11th Cir. 2008)).
VI. Analysis
No party disputes that Plaintiff had a serious medical need. The only question then
is whether Defendants were deliberately indifferent to that need. The Court considers
Plaintiffs claims as to each Defendant.
Before doing so, however, the Court addresses a consistent theme throughout
Plaintiffs deposition: his contention that the medical records are inaccurate. Plaintiff has not
presented any evidence that these records were fabricated in any way, and “[sjelf-serving
statements by a plaintiff do not create a question of fact in the face of contradictory,
contemporaneously created medical records.” Whitehead v. Burnside. 403 F. App’x401,403
(11th Cir. 2010) (citing Bennett v. Parker. 898 F.2d 1530 (11th Cir. 1990)); see generally
Kingsland v, City of Miami. 382 F.3d 1220, 1227 n.8 (11th Cir. 2004) (“[A] court need not
entertain conclusory and unsubstantiated allegations of fabrication of evidence.” (citation
omitted)). Regardless, these “disputes” are not material for purposes of resolving the
Summary Judgment Motions.
A. Defendant Barnes
Plaintiff alleges that Defendant Barnes “refused to administer narcotic pain
medication” and “refused to allow the Plaintiff to receive any of the treatments untilfj UF
7

Case 3:14-CV-00591-TJC-JBT

Document 83 Filed 03/27/2018
1954

Page 8 of 31 PaqelD

Health Physicians fought for them,” because Defendant Barnes considered them “elective
treatments” for which “JSO would not pay.” During his deposition, Plaintiff summarized his
claims against Defendant Barnes.
My claim against Dr. Barnes is that she refused for the
physical therapy initially. She refused the nerve block initially.
She refused the neurology consult, an ortho consult, I
believe a podiatry consult. There was four different times that - three or four different times. I think one of them was a double
entry. ...
[T]he fact that she refused to give me medication that
would help actually combat my pain, actually reduce my pain
and put me in a state where, “Okay, I can function and live with
this as normally as possible,” that’s a claim against her. Those
are all of my claims against her.
PI. Dep. (Doc. 72-1) at 328; see also id. at 329-30.
Defendant Barnes submitted the following Declaration.
My name is Dana Barnes. I am a defendant in the
above-styled action. I have been a Florida-licensed medical
doctor since 2008 and Board-certified in family medicine since
2011. I am the physician in charge of medical care and
treatment at the John E. Goode Pre-Trial Detention Facility,
and have been in this role since 2011.
I have personal knowledge of Casey Mattingly’s injury
to his left foot, and the medical treatment that was provided to
him for his injury between 2013 and 2015.
I personally saw Mr. Mattingly in the PTDF medical clinic
on numerous occasions.

My first encounter with Mr. Mattingly after his
incarceration at PTDF was on May 22,2012. Mr. Mattingly was
in self-harm at the time recovering from a reported overdose
and drug withdrawal. Mr. Mattingly told me that he heavily
8

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1955

Page 9 of 31 PagelD

abused MDMA (commonly referred to as Ecstasy or Molly) and
benzodiazepines (commonly referred to as Xanax or Valium).
Mr. Mattingly also told me that he abused opiates that had
originally been prescribed to him for chronic pain.
After the injury to his left foot in May 2013, my medical
staff promptly sent him to the UF Health Emergency
Department for evaluation, and subsequently referred Mr.
Mattingly to UF Health Orthopedics and UF Health Podiatry.
Between May 2013 [and] his admission to UF Health for
his amputation in 2015, Mr. Mattingly was transported from the
PTDF to UF Health on dozens of occasions for X-rays, physical
therapy, and treatment and evaluation by orthopedics,
neurology, pain management, and podiatry.
On July 30, 2013, Mr. Mattingly was seen by UF Health
Podiatry and diagnosed with CRPS,[8] a diagnosis which was
found to be incorrect. The treating physician, a resident in
podiatry, recommended that Mr. Mattingly begin physical
therapy and also be evaluated by the UF Health Neurology
Department. I referred Mr. Mattingly to physical therapy, but at
that time, in my professional opinion, a neurology consultation
was not warranted given that the injury was so recent and was
expected to improve with physical therapy. However, less than
one month later, on August 20, 2013, I decided to refer Mr.
Mattingly to UF Health Neurology. Mr. Mattingly was in fact
seen by UF Health Neurology on September 16, 2013.
On September 11,2013,1 examined Mr. Mattingly in the
PTDF medical clinic, and I referred him back to UF Health
Podiatry noting that repeat imaging should be considered given
that the injury was not getting any better.
On September 17, 2013, Mr. Mattingly was seen by
podiatry and I was advised by the podiatrist that a sympathetic
nerve block procedure was recommended. As this procedure
involved risks, including general anesthesia and spinal
injections, I called the podiatrist and explained that I believed
this procedure to be a last resort in CRPS cases and that I was
unaware of any benefit at this time. The podiatrist responded
Complex Regional Pain Syndrome. See Doc. 72-3 at 49.
9

ase 3:14-cv-00591-TJC-JBT

Document 83
Filed 03/27/2018
1956

Page 10 of 31 PaqelD

that she would forward literature or evidence of the benefit of
this procedure to me, but she never sent me anything. In my
professional opinion, I believed that given the evasive nature
the potential harm substantially outweighed any potential
benefit.!9] Further, any of the UF Health specialists, including
podiatry, could have admitted Mr. Mattingly at any time and
initiated this treatment as an in-patient procedure.
On September 18, 2013, after Mr. Mattingly was seen
by UF Health Neurology and Podiatry, I saw Mr. Mattingly in
the PTDF medical clinic. Previously, I had prescribed a drug
called Elavil for his pain. On this date, Mr. Mattingly told me
that the Elavil was not helping. I offered Mr. Mattingly an
increased dose of Elavil, but [he] refused and chose to stop
Elavil altogether.!10] I advised Mr. Mattingly that he needed to
perform range of motion exercises all of the time, not just at
physical therapy, and that the non-usage of his foot was the
cause of its deterioration. I prescribed gabapentin for pain, as
recommended by UF Health Neurology, and continuance of
physical therapy.
On October 2, 2013, PTDF medical staff referred Mr.
Mattingly back to UF Health Orthopedics upon UF Health
Podiatry’s recommendation for a consultation on amputation.
Mr. Mattingly was in fact seen on October 11, 2013 by UF
Health Orthopedics. According!] to the UF Health medical
records, the treating orthopedist’advised against amputation in
favor of salvaging Mr. Mattingly’s left leg and was going to
initiate a sympathetic nerve block procedure as alternative
treatment. However, the treating orthopedist delayed thjs
procedure until he had reviewed Mr. Mattingly’s psychiatric
records given his “extensive psychiatric history."
On October 29,2013,1 examined Mr. Mattingly again in
the PTDF medical clinic. Mr. Mattingly stated that he did not
want to continue taking gabapentin, and that he wanted an

See Doc. 72-8 at 15 (treatment note from UF Health Podiatry recommending a
sympathetic nerve block; handwritten note on bottom from Defendant Barnes stating, “[zero]
referral for elective nerve block - may pursue upon release”).
10 Plaintiff testified that he refused Dr. Barnes’ offer to increase the dosage of Elavil PI
Dep. (Doc. 72-1) at 239.
10

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1957

Page 11 of 31 PagelD

amputation. I discontinued the gabapentin prescription at his
request and again emphasized the importance of practicing
range of motion exercise and activity in his foot and leg.
Two weeks later, on November 14, 2013, I saw Mr.
Mattingly again. Mr. Mattingly told me that the pain was worse
without the prescriptions for gabapentin and tramadol, and I
immediately started same again for administration. I also
referred Mr. Mattingly back to UF Health Orthopedics for
assessment. Two weeks after this visit, Mr. Mattingly was
transferred to Florida State Hospital and out of my medical
care from December 2, 2013 through April 2, 2014.
On April 30, 2014, I saw Mr. Mattingly in clinic, and he
continued to insist upon an amputation of his leg. I encouraged
him to use his leg as a better alternative to amputation, and
referred him back to UF Health Orthopedics forevaluation and
further recommendations for treatment. Mr. Mattingly was seen
two days later by UF Health Orthopedics, which admitted him
into the hospital, and a sympathetic nerve block was performed
on May 5, 2014. When it was determined that the nerve block
was not effective, UF Health Orthopedics had no further
recommendations beyond what UF Health Pain Management
would recommend.
On May 12, 2014, Mr. Mattingly was returned back to
PTDF from UF Health and it was reported that the nerve block
had no effect. UF Health Pain Management recommended that
Mr. Mattingly keep his leg elevated (which he previously
refused to do), noting thatwhen it was elevated during surgery,
the swelling decreased significantly. UF Health Pain
Management recommended intraspinal procedures (which Mr.
Mattingly refused to consider), range of motion exercises as
had been ordered all along, and administration of elavil for pain
(which Mr. Mattingly previously reported did not help and
refused an increased dose). UF Health Pain Management had
no further recommendations.
On May 27,2014, Mr. Mattingly saw UF Health Podiatry
which recommended wound care (which was subsequently
performed at PTDF under the wound care team), pain
management per PTDF medical clinic (Mr. Mattingly was
prescribed tramadol), another amputation consult (UF Health
11

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1958

Page 12 of 31 PagelD

Orthopedics declined further treatment), and a neurosurgery
consultation for a neurostimulator (refused by Mr. Mattingly).
After Mr. Mattingly reported no pain relief after the
sympathetic nerve block, UF Health Orthopedics signed off on
his care noting that an amputation would have no effect if the
nerve block had no effect. UF Health Pain Management signed
off on his care with recommendations that Mr. Mattingly either
refused or had been provided all along. UF Health Podiatry
recommended wound care and pain management in
accordance with my professional judgment. Mr. Mattingly was
still insisting on holding his leg in a dependent position despite
recommendations from several physicians to elevate his leg.
Accordingly, on May 27, 2014, I ordered elevation of the leg,
continued range of motion exercises, and receipt of wound
care with no further follow up at UF Health at that time unless
requested.
On June 5, 2014, I saw Mr. Mattingly in the PTDF
medical clinic, and he again told me that he would not elevate
his [leg]. I offered him a leg bolster or a wedge to elevate his
leg, and he declined both.[11]
On August 21, 2014, I saw Mr. Mattingly in the PTDF
medical clinic and ordered further wound care.
On January 22, 2015,1 again saw Mr. Mattingly and he
again asked me to refer him to UF Health Orthopedics for an
amputation. I counseled him extensively on the importance of
using his left foot and leg in order to heal. I told him that
physical therapy and rehabilitation are and should be
uncomfortable, but that was the only way to regain use of his
leg. I reminded him the orthopedic surgeon did not feel there
was any indication for amputation and told him that in my
personal opinion amputation is crazy and should not be done
since he has an intact leg that is capable of regaining
physiological function were he willing to do the elevation and
11 Plaintiff acknowledged that he hung his left leg off of his bed every night. See PI. Dep.
(Doc. 72-1) at 226 (“Yes, every night. Every night that I was injured with that leg, that I
couldn’t keep it in bed because the first couple months I was in a cast, and then after that
it was just too dad-gum swollen and painful to put in the bed, I had my leg hanging off the
bed.”).

12

ase 3:14-CV-00591-TJ C-J BT

Document 83 Filed 03/27/2018
1959

Page 13 of 31 PagelD

rehabilitation. We could not reach an agreement, and Mr.
Mattingly still insisted on amputation. Accordingly, I consented
to refer him back to UF Health Orthopedics for an evaluation.
The PTDF medical staff does not prescribe narcotic pain
medication to inmates except in certain very limited
circumstances. First, and most importantly, narcotics are
considered highly addictive in the medical community, and are
not generally prescribed for treatment of chronic pain.
Generally, narcotics are only appropriate if a patient has
undergone surgery, has broken a bone, has a terminal illness
(such as cancer), or has a debilitating disease like sickle cell
anemia. Second, narcotics are used as a commodity in the jail
setting despite procedures in place to avoid their trade. Third,
it is well established in the medical community that narcotics
should not be prescribed to persons with drug abuse history.
I did not prescribe narcotic pain medication to Mr.
Mattingly because he had a reported history of drug abuse,
specifically opiates, and did not fall into any of the exceptions
listed above while I was treating him. The imaging at UF Health
never revealed a fracture in his left foot, and even if it did, I
would only have prescribed narcotics (if needed) for a very
short course.
In accordance with established clinical guidelines for
chronic pain control, four non-narcotic categories of pain
medication were given: (1) acetaminophen (Tylenol); (2) non­
steroidal anti-inflammatories (prescription-strength ibuprofen);
(3) anti-depressants (Elavil); and (4) anti-convulsants
(gabapentin). At the time that we prescribed tramadol to Mr.
Mattingly for pain, it was considered a non-narcotic drug.
However, on August 18, 2014, tramadol was classified by the
Food and Drug Administration as a narcotic. Tramadol is no
longer used for chronic, non-malignant pain in the jail setting.
Mr. Mattingly had alleged that I improperly denied Sohail
Khan’s recommended neurology consultation at UF Health on
October 22, 2014. The referral was denied because
(unbeknownst to Mr. Khan) I had already referred him to UF
Health Neurology and they had no further recommendations for
his treatment.

13

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1960

Page 14 of 31 PagelD

I never considered the cost of UF Health’s treatment of
Mr. Mattingly or referrals to UF Health specialists. I always
operated under my own independent professional judgment
which never was influenced by the expense of the health care
actually provided to Mr. Mattingly while he was treated at PTDF
or under UF Health’s treatment.
All of the decisions I made regarding Mr. Mattingly’s
medical treatment were based on my professional medical
opinion, my experience, and my medical training. All of the
decisions I made were for the purpose of healing Mr.
Mattingly’s injured leg.
Doc. 72-8 at 2-6 (internal record citations and enumeration omitted).
Plaintiffs complaint that Defendant Barnes did not prescribe him with narcotic pain
medication is accurate. Defendant Barnes did not do so for the reasons stated in her
Declaration: narcotics are rarely prescribed in the jail setting and in her professional opinion,
considering her knowledge of Plaintiffs substance abuse history12 and current injury, she did
not believe narcotic medication was warranted. The Court recognizes that a medical
provider’s failure to treat an inmate’s pain may constitute deliberate indifference. See
McElligott v. Foley, 182 F.3d 1248,1257 (11 th Cir. 1999) (“Insofar as [the inmatej’s pain was
concerned, a jury could find that the medication provided to [the inmate] was so cursory as
to amount to no care at all. A jury could conclude that, despite being aware that the
medication prescribed for [the inmate] was not treating the severe pain he was experiencing,
[the medical defendants] did nothing to treat [the inmate]’s pain or respond to the
deterioration of his condition.”).This is not a situation where Defendant Barnes failed to

12 Plaintiff testified that he told medical staff at the jail that he was dependent on opioids.
PI. Dep. (Doc. 72-1) at 162. He also reported to staff that he used cannibis, ecstasy, cocaine,
percocet, and hydrocodone. ]d at 163; see also id at 262.
14

\

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1961

Page 15 of 31 PagelD

provide any medication or treatment or failed to attempt to treat Plaintiff’s reported pain. She
was responsive to Plaintiff’s complaints, and Plaintiff acknowledged at his deposition that
pain medication was available to him-it just was not the type of medication he desired. See
e^, PI. Dep. (Doc. 72-1) at 117-18,191,228,234,236-37,239,251,255,258,262-63,26970, 293-94, 297-98. The medical staff at Florida State Hospital prescribed the same pain
medication as Plaintiff was prescribed at the jail (tylenol, tramadol, and gabapentin).13
Plaintiff acknowledged that he refused pain medication at the jail and Florida State Hospital.
See id. at 269-70, 280. But he argues that he should have been provided with the narcotic
pain medication prescriptions that he was given at UF Health, which sometimes included
Norco, Lortab, and percocets. See PI. Dep. (Doc. 72-1) at 228, 312, 360-61. At bottom,
Plaintiff is simply dissatisfied with the medications he received, but his disagreement with
Defendant Barnes on her course of treatment based on her medical judgment does not
amount to a constitutional violation. See Adams v. Poaa. 61 F.3d 1537, 1547 (11th Cir.
1995) (finding that the decision whether to “administer stronger medication ... is a medical
judgment and, therefore, an inappropriate basis for imposing liability under section 1983”).
Plaintiffs allegation that Defendant Barnes did not refer him to physical therapy is
refuted by the contemporaneously created medical records. Plaintiff’s cast was removed on
July 12, 2013. Doc. 72-5 at 42. On July 30, 2013, Plaintiff was seen by a podiatrist at UF

13 Florida State Hospital has its own procedures and did not blindly follow what was
provided to Plaintiff at the jail. See Doc. 72-9 at 10 (Deposition of Patricia Kalu, RNP at
Florida State Hospital: “We - - whenever we admit you here [(Florida State Hospital)] we
have our own protocol and our own procedures to treat, that’s what we go by, by our hospital
protocols and treatment, and those are standard procedures that we follow.... We cannot
go by ... any standing orders that were given outside of this facility.” (emphasis omitted)).
15

ase 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1962

Page 16 of 31 PaqelD

Health. Doc. 72-1 at 442-43 (medical records attached to Plaintiffs Deposition). Under
“Orders” on the podiatrist’s treatment note, she wrote: “Neurology consult” and “PT for
CRPS.” id, at 442. That same day, Defendant Barnes referred Plaintiff to physical therapy,
Doc. 72-8 at 11 and he had his initial evaluation with the physical therapist on August 13,
2013, Doc. 72-3 at 77-83.14 Plaintiff also alleges that Defendant Barnes was deliberately
indifferent when she failed to refer him to neurology based on the podiatrist’s
recommendation. Despite Defendant Barnes’ initial determination that a neurology referral
was not warranted, less than one month later on August 20, 2013, Plaintiff was referred for
a neurology consultation, and he was seen by neurology on September 16, 2013. Dr.
Bautista, the associate chairman of the neurology department, recommended “pain
management as well as continuing physical therapy.” Doc. 72-6 at 2-3. He further
recommended gabapentin. jdL at 3. This brief delay in seeing a neurologist did not result in
any injury, and Defendant Barnes explained her medical reasoning for initially denying the

t&ootA' A-V^. }\J(U)ro\ocy^ rvJrfLTfc I

A'W,,

\<-\ -yUsV

urn
14 Plaintiff had physical "therapy visits on August 27, 2013 (Doc. 72-4 at 27-29); August
29, 2013 (jd, at 31 -33); September 3,2013 (id, at 39-41); September 5,2013 (id, at 42); and
September 10, 2013 (id, at 43-45). The physical therapist’s note dated October 8, 2013,
reflects that Plaintiff did not appear for his appointment that day and that was Plaintiff’s
second “no-show.” Jd, at 61. At his deposition, Plaintiff testified that “Joe, the physical
therapist, cut [him] lo[o]se after three weeks” because it was ‘“only getting worse.’” PI. Dep.
(Doc. 72-1) at 121. He also testified that during his stay at Florida State Hospital, he refused
physical therapy. ]d, at 277-78. But, in his Response, he argues that “he was prevented by
the defendants from attending scheduled physical therapy sessions on at least two
occasions but probably three.” Doc. 76 at 3 (citing Doc. 76-5 at 8 and Doc. 72-4 at 61). The
documents cited by Plaintiff do not support an inference that Defendants denied him physical
therapy. As noted, the physical therapist’s October 8, 2013 note shows that Plaintiff did not
appear for his 2:00pm appointment, but other records from Shands appear to reflect that
Plaintiff was at Shands that day. Doc. 72-4 at 56-60. Moreover, he states in his Sur-Reply
that he refused physical therapy at Florida State Hospital because “the physical therapist
agree[d] with the Plaintiff that Physical Therapy would be counter-productive.” Doc. 82 at 4.

3

-----------------u

Ov\\OV *5
„ y>0
CHCOrcf->

Y^\

16

t
*s)AOd\h>\*io£s
\^

tXAMbrV f6V>

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1963

Page 17 of 31 PaqelD

neurology consult. Defendant Barnes exercising her medical judgment in this regard is not
deliberate indifference.
Plaintiff also complains about not receiving orthopedic referrals and further alleges
that Defendant Barnes caused a delay in him receiving a nerve block. The records show
otherwise'. On May 17, 2013, approximately one week after his injury, Plaintiff was seen by
Dr. Charles Shaw, an orthopedic surgeon at UF Health. Doc. 72-4 at 128; see Doc. 72-5 at
26-29. Plaintiff’s foot was x-rayed again, Doc. 72-3 at 43-47, and Dr. Shaw indicated that
there was “no displacement of the bones” and Plaintiff was “going to be maintained in a bulky
compressive dressing with posterior splint and return for followup evaluation in three or four
weeks.” Doc. 72-4 at 128. Dr. Shaw saw Plaintiff again on July 19, 2013; he reviewed
Plaintiffs MRI scan and ordered a venous Doppler. Doc. 72-1 at 439 (medical record
attached to Plaintiffs Deposition). On July 26, 2013, Dr. Shaw followed-up with Plaintiff,
acknowledged that the venous Doppler was negative for DVT, and stated, “Because of his
continued symptoms and lack of a diagnosis that would explain this constellation of findings,
I am going to have the foot and ankle group see him in their clinic.” Doc. 72-1 at 441
(medical record attached to Plaintiffs Deposition). As previously noted, Plaintiff was seen
by a podiatrist four days later on July 30,2013. Doc. 72-1 at 442-43 (medical record attached
to Plaintiffs Deposition).
A clinical note dated October 11, 2013, and signed by Dr. Shaw and Dr. Loren
Hudspeth states:
Mr. Mattingly is a 28-year-old male who sustained a fall
approximately 6 months ago resulting in an ankle injury. After
the injury, he complained of increased pain and decreased
motion, as well as increased sensitivity, cold toes, nerve pain,

17

ase 3:14-CV-00591-TJ C-J BT

Document 83
Filed 03/27/2018
1964

Page 18 of 31 PaqelD

muscle twitches, and swelling. There are no relieving factors,
and the pain is exacerbated by any movement or touch. The
patient also states that he has seen multiple doctors in the past
6 months with varying diagnoses and has yet to find anything
that helps. Mr. Mattingly was seen on Tuesday of this week at
Jail Clinic by Dr. Berrey, Ortho Oncology. At that time, we
discussed with him what we thought was a likely diagnosis of
complex regional pain syndrome. The patient initially stated .
that he wanted to have an amputation immediately. Dr. Berrey
explained to him[] the treatment options and his desire for limb
salvage with a pain catheter in hopes of decreasing the
sympathetic reaction. Patient is agreeable to trying the pain
catheter and limb salvage at this time. The patient has an
extensive psychiatric history with dissociative identity disorder
and multiple mood disorders diagnosed by various physicians.
He is currently seeing Dr. Kao in the jail. Dr. Berrey has
requested that he release this information to him so that he can
help collaborate with his psychiatric doctor. At this time, we
have obtained authorization of release, and plan to see Mr.
Mattingly back in Jail Clinic next Friday. In the mean[]time we
will discuss plan with Anesthesia to get pain catheter
placed and have the patient admitted for treatment.
Doc. 72-4 at 119 (emphasis added). Dr. Shaw saw Plaintiff the following week on October
18, 2013. See Doc. 72-1 at 478 (medical record attached to Plaintiffs Deposition). He
acknowledged that Plaintiff was “becoming increasingly frustrated with the condition of his
leg,” and that “Dr. Berrey is pursuing, considering management of this problem and the
various modalities are being evaluated. We were waiting for his psychiatric evaluation. That
came through this morning and will be delivered to Dr. Berrey by me.” Id at 478.
In a progress note dated May 2, 2014, Dr. Hudspeth wrote:
Mr. Mattingly is a 29-year-old male who sustained a fall with a
cuneiform fracture approximately 1 year ago and has since
developed complex regional pain syndrome. He has been seen
in Jail Clinic multiple times for this issue including discussions
with Dr. Berrey in regard to amputation. He is actively
requesting amputation and has been for the past 6 months. Dr.
Berrey has explained to him treatment options which would
18

Case 3:14-CV-00591-TJC-J BT

Document 83
Filed 03/27/2018
1965

Page 19 of 31 PagelD

include a sympathetic nerve block prior to attempting
amputation. The patient was lost to followup for
approximately 5 months due to being transferred to a
Tallahassee Jail. The patient is here today again requesting
amputation and/or follow up of the sympathetic block.
I discussed the case with Dr. Matt Warrick and Dr. Kumar of
Anesthesia. Dr. Kumar would like the patient to be admitted to
the hospital or TCU on Monday to undergo series of
sympathetic blocks to that left lower extremity. I will call the
hospitalist to attempt to arrange admission for Mr.
Mattingly.
Doc. 72-4 at 118 (emphasis added). The “Tallahassee Jail" referred to by Dr. Hudspeth in
this note is actually Florida State Hospital. The state circuit court ordered that Plaintiff be
sent to Florida State Hospital for evaluation prior to his criminal trial. He remained at Florida
State Hospital from about December 3,2013 to about April 1,2014. See PI. Dep. (Doc. 72-1)
at 259-61; Doc. 72-2 at 4-7 (medical records attached to Plaintiffs Deposition); Doc. 72-6
at 40.
Insofar as Plaintiff contends that Defendant Barnes caused a delay in him receiving
the nerve block, she explained her medical reasoning for initially denying the podiatrist's
recommendation for a sympathetic nerve block in September 2013. However, the following
month, UF Health Orthopedics planned to arrange for a pain catheter after reviewing
Plaintiffs mental health records. Shortly thereafter, through no fault of Defendant Barnes,
Plaintiff was transferred to Florida State Hospital, and “was lost to followup for approximately
5 months.” Doc. 72-4 at 118. Notably, he received a nerve block on May 7,2014, about one
month after he returned to the jail. See Doc. 72-4 at 99-101. The records support a finding

19

Case 3:14-CV-00591-TJC-JBT

Document 83 Filed 03/27/2018
1966

Page 20 of 31 PagelD

that the alleged delay in receiving the nerve block was a result of Plaintiffs transfer to Florida
State Hospital.15
After the nerve block, in May 2014, UF Health Orthopedics and Pain Management
signed off on Plaintiffs care:
Patient received no benefit from sympathetic block performed
by Dr. Kumar. Per Dr. Kumar diagnosis of CRPS is unlikely at
this point. Intraoperative findings showed that when leg not
held in dependent position there was significant reduction in
erythema and swelling to LLE. Discussed the case further with
Dr. Berrey and Dr. Kumar, at this time there is no further
orthopaedic intervention warranted as amputation is
unlikely to benefit.[16] We recommend patient pursue
complete diagnostic evaluation with Dr. Kumar. Patient
continues requesting amputation and asks if there are other
doctors that will do it. Patient is encouraged to get second
opinion regarding amputation.
Doc. 72-2 at 12 (May 9, 2014 medical record signed by Drs. Hudspeth and Berrey, UF
Health Orthopedic Surgery) (emphasis added).
29 yr. [o]ld male with left leg and foot edema and pain as well
as subjective loss of function. All the criteria for the diagnosis
of CRPS type 1 not met. He had a negative response to the
diagnostic lumbar sympathetic block. He wants his leg
15 Dr. Rogozinski was asked whether a delay from October 2013 to May 2014 in
performing the sympathetic nerve block caused Plaintiff any harm orworsened his condition.
Dr. Rogozinski answered: “In view of the fact that Mr. Mattingly received no benefit from the
sympathetic nerve block, and that he did not have CRPS, the delay in treatment did not
cause him any harm nor did it worsen his condition.” Doc. 72-13 at 3 (emphasis omitted).
16 A record from Florida State Hospital shows that Plaintiff had a consultative examination
on March 27, 2014, and the physician wrote: “opinions [at] Shands, Jacksonville Ortho +
from Dr. Hoyne, Vascular Surgeon in Tallahassee that [left below knee] amputation is best.
That is what he wants.” Doc. 76-7 at 2 (some capitalization omitted). This report is
contradicted by the report from UF Health Orthopedics dated May 9,2014, stating that “there
is no further orthopaedic intervention warranted as amputation is unlikely to benefit.” Doc.
72-2 at 12 (medical record attached to Plaintiffs Deposition transcript).
\\ AfooV-

p&'K is,

20

7

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1967

Page 21 of 31 PagelD

amputated inspite of understanding the risks involved.
Discussed the options of getting a lumbar spine MRI without
contrast to rule out any nerve root impingement or spinal
stenosis which can explain his symptoms. Strongly recommend
elevation of left lower extremity to decrease dependent edema.
Discussed spinal cord stimulation, epidural/transforaminal
steroid injection. Patient not willing to have any intraspinal
procedures done at this time.[17] Strongly recommend
active/passive ROM of his left ankle, metatarsals and
phalangeal joints to prevent fibrosis. Can also try
Amitryptiline/Nortriptyline 25-50 mg po qhs to see it[|s
response in the neuropathic pain symptoms along with lyrica.
No further recommendations.
jdat 13 (May 8, 2014 medical record signed by Dr. Kumar, UF Health Pain Management18)
(emphasis added).19 Other than seeing UF Health Podiatry on May 27, 2014, Plaintiffs
medical care was thereafter provided at the jail. In January 2015, Defendant Barnes
consented to refer Plaintiff back to an orthopedic surgeon to re-evaluate him. Doc. 72-6 at
247,249-50. In February 2015, Plaintiff was admitted to the hospital and his amputation was
performed.
Defendant Barnes’ decisions on whether and when to refer Plaintiff to a specialist are
medical judgments. See Boone v. Gaxiola. 665 F. App’x 772, 774 (11th Cir. 2016) (“A
medical decision not to pursue a particular course of diagnosis or treatment is a classic

17 Plaintiff acknowledged that Dr. Kumar recommended other treatment options, but
Plaintiff declined because he had "a leg problem, not a back problem.” PI. Dep. (Doc. 72-1)
at 292; see also jd. at 293.
18 See Doc. 72-4 at 100 (Dr. Kumar - Pain Management).
19 At deposition, Plaintiff testified that the nerve block “worked partially, not entirely.
Several hours it actually worked,” but “[i]t was supposed to last for several days.” PI. Dep.
(Doc. 72-1) at 288.
/

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1968

Page 22 of 31 PagelD

example of a matter for medical judgment, an exercise of which does not represent cruel and
unusual punishment.”). At most, Plaintiff has shown a disagreement with Defendant Barnes’
course of treatment. The record is replete with medical examinations and treatment records
by staff at the jail and UF Health. Plaintiffs disagreement with the treatment he was provided
is not a constitutional violation. See Melton v. Abston. 841 F.3d 1207,1224 (11th Cir. 2016)
(‘"[A] simple difference in medical opinion between the prison’s medical staff and the inmate
as to the latter’s diagnosis or course of treatment’ does not support a claim of deliberate
indifference.” (quoting Harris v. Thigpen. 941 F.2d 1495, 1505 (11th Cir. 1991)).
Finally, there is nothing in the record to support Plaintiffs contention that he was
denied medical care based on cost. Defendant Barnes and Ms. Wildes, the former Director
of Corrections for the Jacksonville Sheriffs Office, both affirmed that cost was never a factor
that was considered in providing inmates medical care at the jail. Ms. Wildes states that
“[t]he cost of medical services provided to JSO inmates by UF Health was never a
determining factor as to whether an inmate was transferred to UF Health for necessary
treatment. The cost of inmate medical treatment at UF Health was covered by the City of
Jacksonville’s indigent care contract with UF Health, and such cost never impacted the
budget of JSO’s Department of Corrections.” Doc. 72-10 at 2-3. Plaintiff received treatment
from several different specialists at UF Health on numerous occasions. His contention that
he was denied treatment because “JSO would not pay” is not supported by the record.
Considering the record on the whole, and viewing the facts in the light most favorable
to Plaintiff, the Court concludes that no reasonable jury could find that Defendant Barnes
was deliberately indifferent to Plaintiffs serious medical needs. The objective medical

S2&

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1969

Page 23 of 31 PagelD

evidence reflects that Defendant Barnes’ course of treatment was appropriate and certainly
not “so grossly incompetent, inadequate, or excessive as to shock the conscience or to be
intolerable to fundamental fairness.” Rogers. 792 F.2d at 1058 (citation omitted). She is due
to have summary judgment entered in her favor.
B. Defendant Richo
Plaintiff claims in the Third Amended Complaint that Defendant Richo “refused to
issue prescribed medication from UF Health, and has told the Plaintiff that she would not
refer him for speciality consultation.” Plaintiff testified at his deposition that Defendant Richo
failed to change his pain medication to “something that works” when he requested it, and she
failed to send him for podiatry and neurology20 consults after speaking with the discharge
physician at UF Health on May 12, 2014. See PI. Dep. (Doc. 72-1) at 332-34.
The following timeline is relevant to Plaintiffs claims against Defendant Richo:
On May 10, 2013, the day after Plaintiffs initial injury, Plaintiff returned from Shands
and was seen by medical staff at the jail. Doc. 72-5 at 14. He was seen again later
that morning by Defendant Richo. jd^ at 15; Doc. 72-7 at 2. Defendant Richo
prescribed ibuprofen and referred Plaintiff to UF Health Orthopedics. Doc. 72-5 at 15;
Doc. 72-7 at 2.
On June 25, 2013, Defendant Richo examined Plaintiff. She prescribed Tylenol and
referred him to UF Health Orthopedics. Doc. 72-7 at 3, 8.
On August 21, 2013, Plaintiff advised Defendant Richo that he heard a “pop” in his
injured foot, and Defendant Richo immediately sent Plaintiff to the UF Health
Emergency Department for evaluation and treatment. Doc. 72-7 at 3, 9.
On September 5, 2013, Defendant Richo prescribed tramadol,21 ibuprofen, and
antibiotics (for possible infection). Doc. 72-7 at 3, 10-11.

20 As shown below, the recommended referrals were to pain management and podiatry.
21 Tramadol was not considered a narcotic until August 18, 2014. Doc. 72-7 at 3.
23

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1970

Page 24 of 31 PagelD

From about December 3, 2013 to about April 1,2014, Plaintiff was at Florida State
Hospital. See PI. Dep. (Doc. 72-1) at 259-61; Doc. 72-2 at 4-7 (medical records
attached to Plaintiff’s Deposition); Doc. 72-6 at 40.
On May 12, 2014, Defendant Richo spoke to a discharge physician at UF Health and
upon that physician’s recommendation, Defendant Richo referred Plaintiff to UF
Health Podiatry and Pain Management. Defendant Richo continued Plaintiff’s
tramadol prescription and instructed Plaintiff to keep his foot elevated. Doc. 72-7 at
3,13-25.
•

On May 19, 2014, Defendant Richo saw Plaintiff for a follow-up visit; she continued
the tramadol prescription. Doc. 72-7 at 3, 26.

•

On December 2, 2014, Defendant Richo referred Plaintiff to wound care, and she
discontinued the gabapentin but continued Tylenol. Doc. 72-6 at 163.

•

On February 9, 2015, Defendant Richo saw Plaintiff. She referred him to wound care
for management. Doc. 72-6 at 283.
Plaintiff s complaint that Defendant Richo failed to refer him to specialists after he was

discharged from UF Health in May 2014 is contradicted by the contemporaneously created
medical records. A record dated May 12,2014, signed by Defendant Richo states: “Received
call from Dr. Vegesma at Shands that Mr. Mattingly will be returning from Shands today.
Pfatient] will need referral to pain management and podiatry and to keep leg elevated.” Doc.
72-7 at 13; see Doc. 72-4 at 112 (record of Dr. Vegesma stating that she requested
Defendant Richo “make sure patient follows up with podiatry and pain management as out
patient”). When Defendant Richo saw Plaintiff that day, she prescribed Tramadol and
. referred him to “[p]odiatry and pain management as recommended by Shands.” Doc. 72-7
at 14; see jcl at 15-25. Defendant Richo completed the requested referrals, and Plaintiff was
seen by UF Health Podiatry on May 27, 2014. Doc. 72-4 at 117. Pain Management,
however, had already signed off on Plaintiffs care. See Doc. 72-2 at 13 (medical record

24

Case 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1971

Page 25 of 31 PagelD

attached to Plaintiffs Deposition).22 Despite Plaintiffs allegation to the contrary, Defendant
Richo completed the referrals that were recommended by Dr. Vegesma at Shands;
therefore, she could not be deemed deliberately indifferent for this reason.
Plaintiffs complaint that Defendant Richo did not provide him with the medication
prescribed by UF Health or change his medication to “something that works” does not rise
to the level of a constitutional violation. Defendant Richo avers that she “did not prescribe
narcotic pain medication” after Plaintiffs injury “because in [her] professional opinion
narcotics were not a proper treatment given Mr. Mattingly’s reported history of drug abuse
and the fact that the x-ray imaging revealed no fracture.” Doc. 72-7 at 2-3. As previously
discussed, just because Plaintiff desired a different medication does not mean that
Defendant Richo was deliberately indifferent in failing to comply with his requests. See
Adams. 61 F.3d at 1547.
Considering the record on the whole, and viewing the facts in the light most favorable
to Plaintiff, the Court concludes that no reasonable jury could find that Defendant Richo was
deliberately indifferent to Plaintiffs serious medical needs. The record shows that Defendant
Richo provided Plaintiff with at least “minimally adequate medical care.” Harris. 941 F.2d at
1504 (citing Estelle v. Gamble. 429 U.S. 97,104 (1976)). Thus, she is due to have summary
judgment entered in her favor.

22 A record dated June 5, 2014 shows that Plaintiff saw Defendant Barnes at the jail, and
Defendant Barnes advised him that he had no consults pending because “there are no pain
med specialists available and since surg has already declined to amputate his leg and since
neurosurg is also not planning any interventions since the CRPS diagnosis is not consistent
with his presentation.” Doc. 72-6 at 100.
25

Case 3:14-cv-00591-TJ C-J BT

Document 83 Filed 03/27/2018
1972

Page 26 of 31 PagelD

C. Defendant Khan
Plaintiffs main complaint against Defendant Khan stems from an encounter on April
9, 2014. See PI. Dep. (Doc. 72-1) at 358-59. Upon Plaintiffs return to the jail from the
hospital, Plaintiff was seen by Defendant Khan. According to Plaintiff, Defendant Khan “took
the Plaintiffs crutches from him and told him to ‘crawl his ass back to his dorm.”’ Plaintiff
alleges that Defendant Khan “threatened to taze the Plaintiff if he didn’t comply.”
In a medical record dated April 9, 2014 at 6:37am, Defendant Khan wrote:
S: pt. return from ER at 4 am. pt. standing and talking to
other inmates, he was asked to move aside and sit on the
vital’s chair, he refused, he rudely shoos me away, “i am fine.”
he was asked to sign a refusal, he was observed using the
crutches as tooth picks and pacing away. At this point, I asked
the officers to take his crutches, he goes to the pod window
and stands there for more than 30 min. “i can’t walk.” Searge
asked him to come back for an eval. His white armband is
blank and the crutches have no name on it. per ER NO fracture
NO DVT
O: pt. rude, argumentative and uncooperative, “you got
to give me my pills from the hospital.” he was educated i
cannot write narcotics. Searge calms him down and now he
cooperates a little, he tells me he thought he had a DVT, at the
same time his LLE problem is ongoing more than 2 years. NO
SOB, NO CP, NO upper thigh swelling. LLE +1 edema,
nonpitting, rubor in color, he was wearing a soft boot,
heart/lungs not done b/c pt. hostile.
A: RSD
P: no need for ortho f/u this is ongoing, he already has
Rx Gabapentin and Tylenol, no need for more meds. NO f/u.
Crutches given back and^ ok to keep soft boot. White arm
ban[d] given.
Doc. 72-6 at 64. Defendant Khan explains that at the time of this encounter, “normal jail
protocol required that inmates returning from a medical referral are required to follow-up with
26

Case 3:14-cv-00591-TJC-JBT

Document 83

Filed 03/27/2018

Page 27 of 31 PagelD

1973

the medical personnel who are on duty” and “that any medical equipment, including crutches,
be checked into the jail with a proper label.” Doc. 72-12 at 3; see also PI. Dep. (Doc. 72-1)
at 367 (“Whenever you come back from M2, you have to do a follow-up with a doctor... or
whoever’s on duty. You have to follow up with them, and they go through any orders, any
treatment plans, housing changes.”). Because Plaintiff’s crutches did not have a label,
Defendant Khan states that he “prepared and attached an appropriate label to them.” Doc.
72-12 at 3; see PI. Dep. (Doc. 72-1) at 372 (Plaintiff testifying at his deposition that he “didn’t
have a bracelet on and ... the crutches didn’t have the bracelet on them”).
First, as to Plaintiffs allegation that Defendant Khan threatened to “taze” him, verbal
threats and harassment are generally not actionable under § 1983. See Hernandez v. Florida
Dep’t ofCorr.. 281 F. App’x 862, 866 (11 th Cir. 2008) (finding that the plaintiffs “allegations
of verbal abuse and threats by the prison officers did not state a claim because the
defendants never carried out these threats and verbal abuse alone is insufficient to state a
constitutional claim” (citation omitted)): see also McFadden v. Lucas. 713F.2d 143,146 (5th
Cir. 1983) (recognizing that ‘“mere threatening language and gestures of a custodial office
do not, even if true, amount to constitutional violations’”). Plaintiffs description of Defendant
Khan’s actions, if true, may cause one to believe Defendant Khan was rude or
unprofessional, but such actions do not amount to a constitutional violation.
Second, regarding Plaintiff’s allegation that Defendant Khan took his crutches from
him, perhaps most importantly, Plaintiff has not shown how he was injured by Defendant
Khan’s actions. The entire encounter between Plaintiff and Defendant Khan lasted about “an
hour and 15 minutes or so.” PI. Dep. (Doc. 72-1) at 374. Plaintiff was not standing that entire

27

ase 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1974

Page 28 of 31 PaqelD

time nor was he without his crutches that entire time, id, at 370-71 (Plaintiffs deposition:
[Sergeant Peterson] went and talked to Mr. Khan. . . . Peterson came back out with my
crutches and told me to come back here. So I come back and I sit back down in the chair.”).
To the extent Plaintiff alleges Defendant Khan engaged in negligent conduct, the law is well
settled that the Constitution is not implicated by the negligent acts of prison officials. Daniels
v. Williams, 474 U.S. 327, 330-31 (1986); see Davidson v. Cannon. 474 U.S. 344, 348
(1986) (“As we held in Daniels, the protections of the Due Process Clause, whether
procedural or substantive, are just not triggered by lack of due care by prison officials.”).
There is nothing in the record to support a finding that Defendant Khan temporarily depriving
Plaintiff of his crutches caused or contributed to Plaintiffs injury or worsened his condition.
Thus, Plaintiffs claim in this regard fails.
Third, Plaintiff alleges that Defendant “Khan refused to issue prescribe^] medication
from UF Health and told other nurses to avoid talking with the Plaintiff.” It has been
established that the jail did not routinely provide narcotic pain medication, but that Plaintiff
was consistently provided with non-narcotic pain medication. He is not entitled to a particular
medication and his requests for specific medications amount to no more than a
disagreement with medical staff as to the appropriate course of treatment-not a
constitutional violation. Additionally, the medical records reflect that on July 24, 2014,
Defendant Khan wrote, “pt verbally agreed to comply with wound care, pis see him, but do
not speak to him if possible, thx.” Doc. 72-6 at 114.23 At his deposition, Plaintiff stated that
By that time, Defendant Khan apparently knew that Plaintiff was suing him. Doc. 72-6
at 107 (Defendant Khan’s treatment note: “Please schedule for a provider visit for tomorrow
to follow up on drainage from his left leg wound. ... [S]ent me a letter he is suing me. I will
28

ase 3:14-cv-00591-TJC-JBT

Document 83

Filed 03/27/2018

Page 29 of 31 PagelD

by this written statement, Defendant Khan “prejudiced other individuals against” him but
“they didn’t go for it. They still conversed with me.... So when they went through that whole
episode there and he told them not to speak to me and put it in the medical record,... they
disregarded that and had a friendly conversation anyhow.” PI. Dep. (Doc. 72-1) at 366.
Again, even if Defendant Khan’s behavior can be considered unprofessional, it is not
unconstitutional. Notably, Defendant Khan requested that Plaintiff still be seen by medical
providers. Plaintiff has not shown how he was injured by Defendant Khan’s actions in telling
other medical staff to see Plaintiff but not to speak to him if possible.
Considering Plaintiffs allegations against Defendant Khan on the whole, the Court
finds that Defendant Khan is entitled to summary judgment. Given the evidence submitted
and viewing the facts in the light most favorable to Plaintiff, no reasonable jury could find that
Defendant Khan violated Plaintiffs constitutional rights.
VII. Conclusion
The medical records show that Plaintiff received consistent and adequate medical
evaluation and treatment. His complaints about specific instances of alleged inadequacies
do not amount to constitutional violations by themselves or on the whole. And even more,
his allegations fail to take into account the whole picture. Plaintiff was not only being seen
by these three Defendants. Rather, the records show that Plaintiff received medical care and
treatment from several different providers at the jail, UF Health, and Florida State Hospital.
Even considering the facts in the light most favorable to Plaintiff, he cannot establish that
Defendants’ actions or inactions violated the Fourteenth Amendment.
not see him.”).

29

W

""“f/V\£^T^

ase 3:14-cv-00591-TJC-JBT

Document 83^ Filed 03/27/2018

Page 30 of 31 PagelD

The Constitution does not require that Plaintiff be afforded the exact type of medical
care and treatment he requests. On the contrary, he is only entitled to “minimally adequate
medical care.” Harris, 941 F.2d at 1504 (citation omitted). He received more than that.24 And
although he “may personally believe that he should have been treated differently, his
personal disagreement with the treatment administered by [the Defendants] is ‘a classic
example of a matter for medical judgment’—not a constitutional violation.” Rutledoe v.
Alabama, No. 16-16083, 2018 WL 705642, at *5 (11th Cir. Feb. 5, 2018) (unpublished)
(quoting Adams. 61 F.3d at 1545).
It is
ORDERED:
1.

Defendants’ Motions for Summary Judgment (Docs. 70, 71) are GRANTED.

2.

Plaintiffs Motion (Doc. 73) is DENIED to the extent he seeks the appointment

of counsel and DENIED as moot to the extent he requests additional time to respond to the
summary judgment motions.
3.

The Clerk shall enter judgment in favor of Defendants and against Plaintiff and

thereafter close the file.
DONE AND ORDERED in Jacksonville, Florida, this 27th day of March, 2018.

TIMOTHY J. CORRIGAN
United States District Judgi

24 This conclusion is not only supported by the medical records and the Defendants’
declarations, b^a|s° bythe expert opinions submitted by Drs. Rogozinski (Doc. 72-13) and
30

ase 3:14-cv-00591-TJC-JBT

Document 83 Filed 03/27/2018
1977

JAX-3 3/22
c:
Casey Mattingly
Counsel of Record

31

Page 31 of 31 PagelD

Additional material
from this filing is
available in the
Clerk's Office.

i

